BANDAS LAW FIRM, P.C.
Attorneys at Law

ROBERT W.

802 N. Carancahua, Suite 1400
Corpus Christi, Texas 78401
(361) 698-5200 Office
(361) 698-5222 Fax

CLORE

May 25, 2021
Via Electronic Filing
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: Rachel Threatt v. Ryan Thomas Farrell, et al.
No. 20-1349
Dear Mr. Harris:
I write on behalf of Respondent Amy Collins. Although Ms. Collins is
technically a respondent, she was an objecting class member who opposed the
attorneys’ fees requested and awarded. She is thus aligned with the petitioner Rachel
Threatt and supports the relief requested in Threatt’s petition for certiorari. As such,
Collins does not intend to file a response.
Thank you for your attention in this matter.
Respectfully submitted,
/s/ Robert Clore
Robert Clore
cc: Counsel of Record
1

